a
TN

@OCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 L e & a 1 B ul € fs contact@cocklelegalbriefs.com
St. 1923,
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-732
RICHARD NATOFSKY,
Petitioner,
Vv.
THE CITY OF NEW YORK,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY TO
RESPONDENT’S BRIEF IN OPPOSITION in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 2407 wotds, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 20th day of March, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

  

A GENERAL MOTARY-State of Hebraska
RENEE J, GOSS
My Comm. Exp, September 5, 2023.

   

Notary Public Affiant

Loos Ondine bt: Ch bee

39583
